No. 19-82
IN THE

Supreme Court of the United States

PAUL V. CANNON,
Petitioner,
Vw

BANK OF AMERICA, NATIONAL ASSOCIATION; MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC.; BANK OF NEW YORK MELLON AS TRUSTEE
FOR CWABS ASSET-BACKED CERTIFICATES TRUST 2007-9, AND
SPECIALIZED LOAN SERVICING LLC,

Respondents.

WORD COUNT CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 1,421 words, excluding the parts of the document

that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on August 14, 2019.

 

Rita L. Hemenway

 
